               CLOSEOUT MEMORANDUM FOR MOO080032
                         I



We received a letter from an anonymous complainant1that alleged the subject's2 funded
NSF proposal3 1) falsely described the project as innovative; 2) misrepresented the
subject's experience and stature in the industry; 3) predicted results that were impossible;
4) misrepresented the state of current technology in the industry; and 5) misrepresented
the magnitude of competition in the industry. The complainant also alleged that 6) the
subject's company received an unfair competitive advantage over other small companies
as a result of NSF's funding the subject's proposal.

Allegation 1: Allegedly, the subject falsely described the project in his proposal as
innovative. The complainant asserted that there existed sophisticated methods already in
use by the industry, some of which were published and "well established and widely
known." The subject's proposal stated that the proposed research relied "on previously
tried and proven methods, except for two additional elements." These "additional
elements" were the focus of a proposed new technique that would more fully, but not
completely, automate the collection of some data for the industry. Ad hoc reviewers of
the subject's proposal stated that the project was novel and important for science and
displayed good judgment in its choice of a semi-automated design that permitted the user
manual intervention. The ad hoc reviewers clearly thought the subject's proposed
technique was innovative for the industry and we have no basis to disagree with this
assessment. There is no substance to the allegation that the subject falsely described his
project as innovative.

Allegation 2: Allegedly, the subject misrepresented his experience and stature in the field
of work in the proposal. The complainant expressed concern that the subject stated in the
proposal that he was a "well known and highly respected" person in his particular field.
The complainant was concerned that this misrepresentation influenced NSF's program to
fund the subject's proposal. NSF ad hoc reviewers said that the subject's proposal
demonstrated a fairly complete knowledge of previous work, and that the subject and his
colleagues had the necessary background and experience to do the proposed project. We
learned that the subject founded a small company in the industry in the 1980s.~About 112
years later the subject left this company and founded a second one in the i n d ~ s t r y .The
                                                                                           ~
subject did work and compete in the industry. The degree of any individual's status in an
industry is debatable and, by its very nature, lacks precision. However, it appears that the
subject had an established and known position in his field in the industry consistent with       .
the representations in his proposal.




                                        Page 1 of 2
               CLOSEOUT MEMORANDUM FOR MOO080032

Allegation 3: Allegedly, the subject predicted results in the proposal that were highly
exaggerated. The complainant claimed that the subject inflated the possible value of the
products his new technique would provide his future clients. The complainant thought
that this inflated value influenced NSF's decision to fund the subject's proposal. The
subject stated in the proposal that the new technique "would enable potential purchasers"
to evaluate data more efficiently assisting them in making a more informed decision in
product selection. None of the ad hoc reviewers commented on the subject's claims of
potential profits for the subject's clients. NSF Form 7, which summarizes panelists'
comments about the subject's proposal, explained that the panel considered the
commercial potential of the subject's proposed work in terms of its improvement over
manual systems and the possible application of this technology to a broad range of other
scientific analyses. Further, the allegedly "inflated" value of the products presented by
the subject, when compared to the potential value of these same products discussed by
the complainant, were very similar. Therefore, there is no substance to the allegation that
the subject's proposal predicted exaggerated results and no evidence that obtaining those
exact results influenced the NSF program's decision to fund the subject's proposal.
Allegation 4: Allegedly, the subject misrepresented the state of current technology in the
industry in his proposal.        The complainant stated that the subject's proposal
"encompassed only one small step of the complex research" in the industry. According
to the ad hoc reviewers, the subject's proposal did a good job describing the current
technology and we have no evidence to disagree with this assessment. This, combined
with the reviewers' perception of the innovative nature of the proposed technique (the
"small step" referred to by the complainant), suggests that there is no substance to the
allegation that the subject misrepresented the state of current technology in the industry
in his proposal.
Allegation 5: Allegedly, the subject misrepresented the magnitude of competition in the
industry with respect to the proposed project. The subject stated in his proposal that the
proposed technique had no competition in the industry for a successful solution. Given
the innovative nature of the subject's new technique and the ad hoc reviewers' comments
about this new technique, the subject's statement seems reasonable. There is no
substance to the allegation that the subject misrepresented the magnitude of competition
in the industry for the proposed work.
Allegation 6: Allegedly, as a result of the NSF award, the subject's company received an
unfair competitive advantage over other companies in the industry. Any small business,
such as the subject's, can apply for research funding from NSF. The competitive review
process used by NSF attempts to provide fair and equitable evaluations of proposals. We
could find no evidence to suggest that NSF's review process failed to work appropriately
in this case. Whatever potential competitive advantage the subject's company may have
gained from the NSF award, it is merely the result of successfully competing for federal
funds. There is no substance to the allegation that the subject's company received an
unfair advantage as a result of his receipt of NSF funds.
This case is closed and no further action will be taken.

c: Investigations, IG


                                        Page 2 of 2
